.
                                                            IG-00-008




AUDIT
                                   ELECTRONIC COMMERCE:
REPORT                              NASA’S ACQUISITION OF
                                       OFFICE SUPPLIES

                                        February 23, 2000




                               OFFICE OF INSPECTOR GENERAL

    National Aeronautics and
    Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html



Acronyms

CCI              Consolidated Contracting Initiative
EC               Electronic Commerce
FACNET           Federal Acquisition Computer Network
FAR              Federal Acquisition Regulation
FASA             Federal Acquisition Streamlining Act
FSS              Federal Supply Service
GSA              General Services Administration
JIT              Just-in-Time
NAIS             NASA Acquisition Internet Service
OGP              Office of Governmentwide Policy
W                                                                            February 23, 2000


TO:            A/Administrator

FROM:          W/Inspector General

SUBJECT:       INFORMATION: Audit of Electronic Commerce: NASA’s Acquisition of
               Office Supplies
               Report Number IG-00-008


The NASA Office of Inspector General has completed an audit of NASA’s use of electronic
commerce (EC) as it pertains to the acquisition of office supplies. We found that some NASA
installations are not using the most cost-efficient method to acquire office supplies. A few
installations are using the General Services Administration’s (GSA’s) electronic commerce
application to obtain office supplies, while other installations have negotiated their own contracts
with vendors to obtain those supplies. Two installations were also still operating office supply
stores at the time of the audit. As a result, NASA installations are incurring unnecessary
expenses for the acquisition of office supplies and for the administration and maintenance of
separate office supply catalogs and other support services. Total NASA expenditures for office
supplies during fiscal year 1998 exceeded $17 million.

Background

NASA is participating in a Federal Electronic Commerce Program and has taken a leadership
role in EC. Through the NASA Acquisition Internet Service, the Agency posts on the Internet all
synopses and competitive solicitations valued at more than $25,000. In addition, NASA is
implementing an Agencywide Consolidated Contracting Initiative (CCI). The CCI goal is to
develop a core of world-class contracts that will enable NASA to acquire common goods and
services quickly, at a fair and reasonable price, and at a low administrative cost. Under the CCI,
NASA installations may also use a contract created by another agency, and in doing so, incur
only minimal costs for the ongoing administration of that contract. The GSA offers GSA
Advantage, an EC application, in which GSA enters into contracts with commercial firms to
provide supplies and services (including office supplies) at stated prices for specified periods.
Using this application, GSA provides customers with literally millions of state-of-the-art, high-
quality commercial products and related services at volume discount pricing on a direct delivery
basis. This application also provides short lead times on orders, low administrative costs, and
reduced inventories. GSA Advantage is available through NASA’s CCI.
                                                                                                2

Recommendations
We recommended that the Associate Administrator for Procurement evaluate the office supplies
support programs at NASA installations and determine whether their existing processes are cost-
effective and meet customer requirements. If the processes were found to be not cost-effective or
not meeting customer requirements, then the installations should implement alternative
processes. We also recommended that the Directors, Kennedy Space Center and Marshall Space
Flight Center, take appropriate action to expedite the closure of their respective Center’s supply
store.

Management Response and OIG Evaluation

Management concurred with the finding and recommendations. The Associate Administrator for
Procurement in coordination with the Associate Administrator for Management Systems agreed
to send a letter to all Center Directors requesting that their Logistics and Procurement Offices
evaluate their current processes for acquiring office supplies. Additionally, the Directors,
Kennedy Space Center and Marshall Space Flight Center, stated that work is planned or already
under way to close both supply stores in an orderly and expeditious manner.

The actions taken by management are responsive to the recommendations. We consider both of
the recommendations to be resolved for reporting purposes and will continue to monitor them
until they have been dispositioned. The actions planned and taken should ensure that NASA as
an organization and individual NASA installations effectively use Electronic Commerce in the
acquisition of office supplies.

[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Electronic Commerce:
   NASA’s Acquisition of Office Supplies
           FINAL REPORT
       ELECTRONIC COMMERCE:
NASA’S ACQUISITION OF OFFICE SUPPLIES
W                                                                            February 23, 2000


TO:            H/Associate Administrator for Procurement
               Director, John F. Kennedy Space Center
               Director, George C. Marshall Space Flight Center

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of Electronic Commerce: NASA’s Acquisition
               of Office Supplies
               Assignment Number A9900500
               Report Number IG-00-008

The subject final report is provided for your use and comment. Please refer to the Results in
Brief section for the overall audit results. Our evaluation of your response is incorporated into
the body of the report. The recommendations will remain open for reporting purposes until
corrective actions are completed. Please notify us when action has been completed on the
recommendations, including the extent of testing performed to ensure corrective actions are
effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program Director,
Procurement Audits, at (818) 354-3360, or Mr. Walter K. Curtis, Auditor-in-Charge, at (818)
354-9746. We appreciate the courtesies extended to the audit staff. The report distribution is in
Appendix D.


[original signed by]
Russell A. Rau

Enclosure

cc:
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
M/Associate Administrator for Space Flight
JM/Director, Management Assessment Division
bcc:
IG, AIGA, Reading Chrons
HK/Director, Contract Management division
ARC/Audit Liaison Representative
DFRC/Audit Liaison Representative
GRC/Audit Liaison Representative
GSFC/Audit Liaison Representative
JPL/Audit Liaison Representative
JSC/Audit Liaison Representative
KSC/Audit Liaison Representative
LaRC/Audit Liaison Representative
MSFC/Audit Liaison Representative
SSC/Audit Liaison Representative
W/Mr. Dear
W/Mr. Curtis
W/Ms. Danne
W/Ms. Armstrong
                                NASA Office of Inspector General

IG-00-008                                                                          February 23, 2000
A9900500

            Electronic Commerce: NASA’s Acquisition of Office Supplies

Introduction

"Electronic commerce" (EC) is the use of many core technologies—the Internet; electronic data
interchange, mail, funds transfer, and catalogs; credit cards; smart cards; and other techniques—
to deliver services and conduct business. (Other definitions of EC are in Appendix B.) EC is
becoming the preferred way of doing business with the Government, according to the General
Services Administration’s (GSA) Office of Governmentwide Policy (OGP). The development of
sophisticated technology and Internet tools such as electronic catalogs and electronic funds
transfer is triggering the expansion of EC throughout Government. As these tools become
available, agencies are being encouraged and, in many cases, required by public law, regulations,
and internal agency guidance to use electronic commerce to eliminate, reengineer, and automate
business practices. Over the next several years, Federal agencies will buy and pay for most
products and services electronically. The Office of Management and Budget stated that
Government agencies expended about $9.4 billion in EC transactions during 1998; the OGP
added that EC may be the most promising avenue for conducting Government business in the
year 2000 and beyond.

Details on our audit objective, scope, and methodology are in Appendix A.

Results in Brief
Some NASA installations are not using the most cost-efficient method to acquire office supplies.
While some installations are using the GSA’s EC application to obtain office supplies, others
have negotiated their own contracts with vendors to obtain those supplies. As a result, NASA
installations are incurring unnecessary expenses for the acquisition of office supplies.

Background
NASA is participating in a Federal Electronic Commerce Program and has taken a leadership
role in EC. Through the NASA Acquisition Internet Service (NAIS), the Agency posts on the
Internet all synopses1 and competitive solicitations valued at more than $25,000. The NAIS has
received national recognition for reengineering the procurement process. NASA plans to expand
the use of the NAIS to include the receipt of vendor proposals for larger procurements in the near
1
 The Small Business Act (Section 15 U.S.C. 637(e)) requires that contracting and subcontracting opportunities be
advertised to the public in order to obtain maximum competition in Government acquisitions. This advertising,
accomplished through the Commerce Business Daily, is called a synopsis and contains information such as name and
address of the contracting office, description of supply or services, solicitation number, and opening and closing
dates of the contracting opportunities.
future. Further, in August 1996, NASA Headquarters designated Marshall Space Flight Center
(Marshall) as the NASA Expert Center for EC with responsibility to foster the application of EC
technologies to improve the Agency’s business processes.2 Marshall was to identify and track
agency EC activities; identify emerging EC technologies; recommend EC technology pilots and
prototypes; and recommend augmenting, consolidating, or abandoning existing EC technology
activities.

GSA Supply Program. GSA Advantage is an EC application under the Federal Supply
Schedule (FSS) program3 in which GSA enters into contracts with commercial firms to provide
supplies and services at stated prices for specified periods. According to GSA, the FSS program
mirrors commercial buying practices more than any other procurement process in the Federal
Government today in that customer agencies such as NASA order directly from the vendors,
using an electronic catalog, and the contractor delivers directly to the customer. FSS provides
customers with literally millions of state-of-the-art, high-quality commercial products and related
services at volume discount pricing on a direct delivery basis. All customers, large or small,
even those in remote locations, are provided with the same services, convenience, and pricing.
The FSS program also offers the benefits of shorter lead times, lower administrative costs, and
reduced inventories. By reducing inventories, agencies are able to minimize the amount of
required storage space and limit the amount of funds invested in supplies held for future use.

GSA contracts for office supplies generally provide a “full cost” for the items ordered. The price
paid by the customer (in this case, NASA) includes GSA’s cost to solicit and award the contracts
to the successful bidders and GSA’s cost to administer the contracts. The successful bidders (the
vendors) agree to deliver the ordered supplies to the customer within a specified period, usually 1
or 2 days, at no additional cost to the customer. Using GSA Advantage, the customer also has no
need for personnel to maintain office supply catalogs and to staff warehouses. GSA Advantage
may also eliminate or reduce the need for the customer’s own delivery personnel. Also,
customers are able to convert office supply warehouses to better use.

Capital Investment Council. The NASA Capital Investment Council4 is responsible for
addressing significant Agencywide capital investment and policy issues. The Council is the key
advisory group to the Administrator in resolving issues; prioritizing activities (capital
investments, functional leadership activities, and programs); and balancing resources among the
Strategic Enterprises. As such, the Council resolves issues among the Enterprises, Functional
Offices, and Centers, or combinations thereof, in terms of Agency investment in assets or
functional capabilities. This Council also reviews Functional Office leadership strategies and
reviews and recommends budget guidance initiating each annual budget cycle.


2
  The Chief Information Officer, Chief Financial Officer, and Associate Administrator for Procurement jointly issued
this designation.
3
  The Federal Supply Service, an entity under the GSA, supports other Federal agencies in supply and procurement,
fleet management, excess property disposal, and travel and transportation services.
4
  The members of the Capital Investment Council are the Associate Deputy Administrator, Chief Financial Officer,
Enterprise Associate Administrators, Center Directors (two, 2-year rotating terms), the Associate Administrator for
Human Resources and Education, and the Associate Administrator for Management Systems. In addition, the
General Counsel serves as an ex officio advisor.


                                                         2
NASA Direction. NASA is implementing an Agencywide Consolidated Contracting Initiative
(CCI) as described in Part 1807 of the NASA Federal Acquisition Regulation (FAR)
Supplement, Subpart 1807.70. The CCI goal is to develop a core of world-class contracts that
will enable NASA to acquire common goods and services quickly, at fair and reasonable prices,
and at a low administrative cost. If a NASA installation is able to use a contract created by
another agency under CCI, NASA will incur only minimal costs for the ongoing administration
of that contract. The CCI is applicable to all contracts for goods and services in excess of
$100,000. The NASA Office of Procurement expects all NASA Centers to use this initiative to
meet the Agency’s needs faster, reduce the time spent on acquisition-related tasks, minimize
contract duplication, save resources, and reduce close-out backlogs. The CCI is an important
part of NASA’s EC program; many of the contracts (for example, contracts available through the
GSA Advantage program) that are accessible through the CCI resource allow electronic ordering
through the Internet. NASA prime contractors are also permitted to participate in the CCI as
users, on a case-by-case basis, after receipt of written approval from a NASA contracting officer.

In October 1996, the NASA Office of Procurement issued CCI guidance stating that
“Procurement Officers will: 1) satisfy their Center’s requirements through the use of existing or
planned CCI contracts before initiating new awards. . . .” However, the Office of Procurement
has not mandated that usage. An Office of Procurement official stated that his office is making
efforts to facilitate the identification of consolidated contracts when Center procurement officials
access the CCI Web page in search of certain types of goods or services. The Office of
Procurement plans to expand its Web pages to identify more contracts from other Government
agencies, such as GSA.

For this report, we concentrated on office supply purchases rather than other less commonly used
items because all NASA installations use this commodity. Total NASA expenditures for office
supplies from all sources during fiscal year 1998 exceeded $17 million.5


Acquisition of Office Supplies

Finding. NASA installations are using various methods to obtain office supplies (see the table,
page 4). Installations are purchasing office supplies at higher prices than those available
elsewhere in the marketplace. This condition exists because NASA has not adequately
emphasized the availability of CCI contracts, such as GSA Advantage, for office supplies. As a
result, installations are incurring unnecessary costs for the acquisition of office supplies and for
the administration and maintenance of separate office supply catalogs and other support services.




5
  We could not precisely determine the amount because two installations do not track budgeted or expended amounts
in a manner that allows identification of amounts spent on office supplies. We estimated the amounts for those two
installations based on usage at other similar installations. Also, one installation could provide no actual
expenditures, but only budgeted amounts.


                                                        3
                               Acquisition Methods for Office Supplies

                                           Electronic        Electronic
                                            Catalog           Catalog     Manual        Purchase        Supply
            Installation                    (GSA)             (other)     Process1        Card          Store2
Ames Research Center                           X                 --          --            --             --
Dryden Flight Research Center                  --                --          X             X              --
Glenn Research Center                          X                 --          --            X              --
Goddard Space Flight Center3                   --                X           --            --             --
Jet Propulsion Laboratory                      --                X           --            X              --
Johnson Space Center                           X                 --          --            --             --
Kennedy Space Center                           --                X           --            --             X
Langley Research Center                        X                 --          --            X              --
Marshall Space Flight Center                   --                X           --            X              X
Stennis Space Center                           --                --          --            X              --
1
  A manual process involves ordering supplies by telephone or fax. While the telephone and fax may be included in a
broad definition of electronic commerce, we did not consider them to be methods of electronic commerce for
purposes of this report.
2
  Plans exist to phase out both stores. However, during the audit, both stores were still operating.
3
  NASA Headquarters also obtains its office supplies through the contracts administered by Goddard Space Flight
Center.



Office Supply Prices. Prices for 27 sampled office supplies varied significantly among NASA
installations.6 The difference between the lowest price available and the highest price for the
same item varied among eight installations7 from 27 percent to 634 percent (see Appendix C).
For example, Ames paid $2.28 for a 3-ring binder (8½ inches by 11 inches), while Kennedy paid
$5.25 for the same type of binder—a 130-percent difference. While no one installation
consistently paid the highest price for each of the sampled items, the highest price for these items
was 77 percent more than the lowest price paid for the same items.8

Support Costs to Acquire Office Supplies. Four installations (see the table, above) are using
the GSA electronic catalog and incur only minimal administrative costs. An individual ordering
supplies through the GSA Advantage program accesses the vendor’s electronic catalog through
the Internet and thereby places the order. If the vendor provides delivery directly to the user’s

6
  For this sample, we selected the 50 office supply items for which NASA had the highest expenditures during
FY 1998 at Johnson Space Center, which used the GSA catalog. We then obtained the unit prices for these items at
each of eight installations. Only 27 of the 50 items were available at all eight installations. We did not include
Dryden Space Flight Center (Dryden) and Stennis Space Center (Stennis) in the sample because sufficient data for
those installations were not available.
7
  The installations were: Ames Research Center (Ames), Goddard Space Flight Center (Goddard), Glenn Research
Center at Lewis Field (Glenn), Jet Propulsion Laboratory (JPL), Johnson Space Center (Johnson), Kennedy Space
Center (Kennedy), Langley Research Center (Langley), and Marshall.
8
  To arrive at 77 percent, we totaled the lowest prices and the highest prices for each of the 27 items. We then
divided the difference between those totals by the total for the lowest prices paid.


                                                         4
desktop, the installation incurs only minimal expenses in conjunction with the order. If the
vendor delivers the supplies only to a central receiving dock, the installation is then responsible
for delivery to the end user and incurs additional expenses for the delivery.

Four installations (see the table, page 4) are using electronic catalogs other than the GSA catalog
and are incurring a range of additional overhead expenses that would not be incurred if the GSA
catalog was used. If an installation contracts with an office supply vendor, the installation must
develop a request for proposal, negotiate and award a contract, and administer the contract. Also,
the installation may incur expenses for warehousing, security, and delivery of the supplies. The
Jet Propulsion Laboratory has about 10 employees who negotiate contracts and process orders
that include office supplies, but it does not add the cost for the employees’ services to office
supply orders. As another example, Goddard incurs costs for a logistics support contractor who
developed and maintains a comprehensive database of all logistics supplies and activities. That
database, in part, assists in the electronic placement of orders with office supply vendors. The Jet
Propulsion Laboratory and Goddard do not include these expenses in the catalog price that the
end user pays, but the installations incur and NASA pays these expenses.

Three installations (see the table, page 4) use a manual process to acquire office supplies either
through an installation supply store or directly from the vendor. Both Marshall and Kennedy
maintain a supply store9 to provide needed office supplies. Marshall employs about seven people
to acquire office supplies and staff a supply store. Marshall does not add these costs or the costs
of maintaining the supply store to the price of the office supplies that personnel acquire from that
supply store. Both installations also incur a “cost of money” for their investments in their
respective supply inventories that are warehoused until needed. Again, these expenses are not
factored into the cost of the office supplies. Dryden does not maintain a supply store; Dryden
places all orders by telephone or fax, sometimes paying by purchase cards.

At least six locations (see the table, page 4) use purchase cards. Four of the six installations use
purchase cards in combination with the other methods previously described. With purchase
cards, users place an order electronically, telephonically, or by visiting the office supply vendor.
Users may incur a significant investment of Government time when visiting an off-site vendor or
an installation’s supply store. For example, to purchase necessary supplies, an individual may
spend 1 to 2 hours or more traveling to and from a vendor’s off-site location, depending on the
quantity and variety of office supplies an organization needs.

Conclusion. Installations continue to use a variety of methods to acquire office supplies and, in
some cases, are not receiving the best possible prices for those supplies. Further, installations are
incurring unnecessary costs for the acquisition of those supplies. We were unable to determine
the extent of the unnecessary costs because key data such as personnel costs and amounts
actually expended for certain supplies were unavailable. However, those costs could be reduced
or eliminated through the use of consolidated contracts such as those offered by GSA.

9
 Prior to the start of this audit, Marshall was considering closing its store or significantly changing the store’s
operating practices. The Kennedy supply store is also planned for closure under the recently signed Joint Base
Operating Systems Contract that governs the overall operations of the Kennedy Space Center and Cape Canaveral
Air Station.


                                                          5
Other Issues for Consideration. Although we limited our review to office supplies, we
observed that GSA maintains contracts for a variety of other items commonly used at NASA
installations. Agency procurement officials may wish to consider the use of the GSA supply
schedules for items such as janitorial and maintenance supplies, electrical supplies, and batteries.
Individual NASA installations were pursuing contracts and electronic catalogs directly with
vendors for these items. In pursuing the contracts and catalogs for these items instead of using
consolidated contracts created by GSA, for example, the installations are incurring the same
unnecessary costs that were incurred in the acquisition of office supplies, as discussed above.


Recommendations, Management's Response, and Evaluation of Response

1. The Associate Administrator for Procurement should evaluate NASA’s office supplies
support programs and determine whether their existing processes are cost-effective and meet
customer requirements. If the processes are not cost-effective or do not meet customer
requirements, then NASA should implement alternative processes.

2. The Directors, Kennedy Space Center (Kennedy) and Marshall Space Flight Center
(Marshall), should take appropriate action to expedite the closure of their respective Center’s
supply store.


Management’s Comments. Concur. Management stated that the recommendations will be
implemented. The Associate Administrator for Procurement in coordination with the Associate
Administrator for Management Systems will send a letter to all NASA installations requesting
that their Logistics and Procurement Offices evaluate their current processes for acquiring office
supplies and determine whether the existing processes are cost-effective and meet customer
requirements. Also, work is planned or already under way to close the supply stores at Kennedy
and Marshall in an expeditious manner. The complete text of management’s response is in
Appendix D.

Evaluation of Response. The actions planned by management are responsive to the
recommendations. The recommendations are resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.




                                                 6
                 Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of this audit was to evaluate the effectiveness of NASA’s use of EC in the
procurement of office supplies.

Scope and Methodology

We obtained an overall understanding of the extent of NASA’s use of EC at the headquarters and
Center levels, with particular emphasis on the acquisition of office supplies using electronic
processes.

During the audit, we:

•   reviewed the criteria addressing the use of electronic commerce and the acquisition of office
    supplies,

•   interviewed key procurement officials at NASA Headquarters and each NASA Center, and

•   selected procurement items for cost comparison.

Sampling Methodology

We used a judgmental sample to conduct our audit. We made no projections based on our
findings.

To select our sample, we first prioritized all supply items at each center. We ranked items
according to the total annual expenditures for FY 1998. Upon examination, we found that many
items were common across the Centers.

Using the data on office supplies purchased at Johnson as our baseline, we selected the 50 items
for which NASA expended the most funds in FY 1998. We attempted to obtain the unit cost
each Center paid for the identical items. Of the 50 items, we were able to identify 27 identical
items that had been purchased at all eight installations. A summary of those items and our
findings are included in Appendix C.


Audit Field Work

We conducted audit field work from March through August 1999, at NASA Headquarters and
each NASA installation. We performed the audit in accordance with generally accepted
government auditing standards.




                                                7
                   Appendix B. Definitions of Electronic Commerce

Other definitions of electronic commerce follow. These definitions illustrate the various
understandings of the relatively new field of electronic commerce.

Part 2, Subpart 2.1, of the FAR states:

                "Electronic commerce" means electronic techniques for accomplishing business
                transactions including electronic mail or messaging, World Wide Web
                technology, electronic bulletin boards, purchase cards, electronic funds transfer,
                and electronic data interchange.

“ELECTRONIC COMMERCE: Control Issues for Securing Virtual Enterprises” (by Albert J.
Marcella Jr., Larry Stone, and William J. Sampias) provides several definitions of the term,
including the following:

           1.   Electronic Commerce (EC) is a composite of technologies, processes and
                business strategies that foster the instant exchange of information within and
                between organizations. EC strengthens relationships with buyers, makes it easier
                to attract new customers, improves (and in some cases reinvents) customer
                responsiveness, and opens new markets on a global scale. (Attributed to Greg
                Martin, Interchange Software Group of Sterling Commerce)


           2.   Electronic Commerce is the exchange of goods or services for money, or the
                transfer or exchange of some form of financial instrument. (Attributed to
                Coopers & Lybrand, L.L.P., White Paper on Electronic Commerce and the
                Internet)

           3.   Electronic Commerce is the seamless exchange of business and technical data
                across any computer platform, using national and international standards,
                allowing government and industry to conduct business electronically.
                (Attributed to Electronic Commerce Resource Center)

           4.   Electronic Commerce simply put, is the automation of the business process
                between buyers and sellers. (Attributed to IBM)

           5.   Electronic Commerce is the standards-based execution and transmission of
                business and technical data by electronic means. The tools of electronic
                commerce range from e-mail and electronic data interchange to enterprise
                integration and outsourcing over the National Information Infrastructure (e.g.,
                the Internet). (Attributed to Electronic Commerce Resource Center)

           6.   Electronic Commerce is the paperless exchange of business information using
                electronic data interchange, electronic mail (e-mail), computer bulletin boards,
                FAX, electronic funds transfer, and other similar technologies. (Attributed to
                Electronic Commerce Information Center, U.S. Department of Defense)




                                                        8
                                                  Appendix C. Sample of 27 Office Supply Items
    Product Description              Pricing   Johnson    Kennedy    Marshall   Goddard     Glenn     Langley    JPL       Ames      Lowest       Highest   Difference
                                      Unit                                                                                           Price (a)    Price (b)  (b-a/ a)
    Batteries, industrial AA 8/PK    PACK         $2.75      $4.14      $1.47      $1.79      $2.48     $10.79     $2.40     $1.76        $1.47      $10.79      634%
    Engineer, computation pad         PAD         $2.88      $2.70      $0.72      $4.30      $5.03      $2.20     $2.99     $2.67       $0.72        $5.03      599%
    Batteries, industrial AAA 8/PK   PACK         $2.90      $4.14      $1.47      $1.12      $2.72      $5.74     $2.40     $1.80       $1.12        $5.74      413%
    Engineer, computation pad        EACH         $2.88      $2.70      $0.72      $3.25      $2.88      $2.20     $2.99     $2.67       $0.72        $3.25      351%
    Binder, view 3" 8.5X11           EACH         $3.62      $3.62      $3.49      $1.13      $4.01      $3.62     $4.95     $3.79       $1.13        $4.95      338%
    Paper, copier 8.5X11"             BOX        $57.50     $57.50     $21.60     $17.31     $57.54     $23.90    $20.30    $21.39      $17.31       $57.54      232%
    File Pocket                      EACH         $0.57      $0.49      $0.48      $0.71      $0.75      $0.54     $1.45     $0.90       $0.48        $1.45      202%
    Binder,3/RG WE 11X8.5 1          EACH         $3.16      $3.00      $1.49      $4.47      $3.16      $3.00     $3.76     $2.49       $1.49        $4.47      200%
    Trans, Inkjet Printer 50/BX       BOX        $31.45     $25.05     $17.80     $24.45     $51.99     $25.05   $23.98    $22.75       $17.80      $51.99       192%
    Tape, Magic #810 3/4X1296        ROLL         $1.56      $1.56      $0.59      $1.33      $1.17      $1.54     $1.69     $0.78       $0.59        $1.69      186%
    Pencil, Mech Dual .5MM BY        DOZEN       $20.28     $20.28     $16.92      $16.53    $15.95      $8.16    $19.20    $22.61       $8.16       $22.61      177%
    Pen, Uni-Vision Black Micro      EACH         $1.07      $1.07      $0.43      $1.10      $1.07      $1.07     $0.55     $1.15       $0.43        $1.15      168%
    Disk,3.5, 10/BX                   BOX         $4.05      $4.22      $2.34      $4.31      $5.09      $3.66     $4.72     $5.84       $2.34        $5.84      150%
    Binder, white 1" clear           EACH         $2.09      $2.09      $1.49      $2.31      $2.09      $2.09     $1.06     $2.49       $1.06        $2.49      135%
9




    Binder, 3/RG WE 11X8.5 2         EACH         $3.95      $5.25      $2.38      $2.87      $2.72      $4.55     $3.76     $2.28       $2.28        $5.25      130%
    Label, Address Laser 1X4 2000     BOX        $22.43     $22.43     $13.12     $19.22     $22.43     $22.43    $20.39    $28.68      $13.12       $28.68      119%
    Binder, view 2" WE               EACH         $4.71      $4.84      $2.71      $2.87      $2.95      $2.95     $3.94     $2.28       $2.28        $4.84      112%
    Film,CR F/Laser Printers          BOX        $16.98     $16.98     $13.92     $11.43     $16.98     $16.98    $15.44     $8.29       $8.29       $16.98      105%
    Binder,3/RG WE 11X8.5 2          EACH         $4.55      $4.55      $3.80      $3.80      $4.55      $3.95     $3.76     $2.28       $2.28        $4.55      100%
    Pocket, Folder red letter        EACH         $0.82      $0.82      $0.74      $0.88      $0.87      $0.86     $0.86     $0.44       $0.44        $0.88      100%
    Binder, view 2-CAP WE            EACH         $3.25      $2.85      $2.71      $3.80      $2.79      $2.95     $3.94     $2.28       $2.28        $3.94       73%
    Toner, Laserjet 5P 5MP           EACH        $72.11     $65.58     $55.60     $69.80     $72.00     $72.00    $80.29    $92.23      $55.60       $92.23       66%
    Folder, Hanging Letter Green      BOX         $5.34      $5.21      $4.48      $5.24      $7.09      $5.42     $5.81     $6.91       $4.48        $7.09       58%
    Toner,HP Laser JetII/110         EACH        $73.70     $77.00     $52.10     $66.70     $69.99     $81.74    $70.00    $72.50      $52.10       $81.74       57%
    Toner, HP LJ 5SI/5SIMX           EACH       $161.47    $168.70    $121.50    $148.71    $159.00    $161.47   $129.00   $186.15     $121.50      $186.15       53%
    Toner, Microfine F/HP LJ4        EACH        $92.46     $92.40     $66.25     $88.00     $86.99     $88.44    $61.72    $87.99      $61.72       $92.46       50%
    Toner, cartridge LJ4L 4ML        EACH        $67.67     $70.70     $55.60     $63.60     $64.99     $67.67    $68.08    $64.99      $55.60       $70.70       27%


                                                                                                                            Totals     $436.79      $774.48      77%
Appendix D. Management’s Response




               10
     Appendix D




11
Appendix D




             12
                           Appendix E. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, NASA Management Office, Jet Propulsion Laboratory
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, Stennis Space Center
Chief Counsel, John F. Kennedy Space Center




                                             13
Appendix E


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               14
                       NASA Assistant Inspector General for Auditing
                                      Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing our
reader survey? For your convenience, the questionnaire can be completed electronically
through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be
mailed to the Assistant Inspector General for Auditing; NASA Headquarters, Code W,
Washington, DC 20546-0001.


Report Title: Electronic Commerce: NASA’s Acquisition of Office Supplies


Circle the appropriate rating for the following statements.
                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically        5        4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent              Fair
      Very Good              Poor
      Good
If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.




How did you use the report?
How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                  No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Lorne A. Dear, Program Director, Procurement Audits

Walter K. Curtis, Auditor-in-Charge

Teresa J. Danne, Auditor

Bonnie J. Armstrong, Auditor

Christina D. Head, Program Assistant

Betty J. Weber, Operations Research Manager

Nancy C. Cipolla, Report Process Manager
